Report No. D-2010-088               September 30, 2010




       Accountability and Disposition of Government
      Furnished Property in Conjunction with the Iraq
     Drawdown - Logistics Civil Augmentation Program
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
BIAP                          Baghdad International Airport
COB                           Contingency Operation Base
COL                           Contingency Operation Location
COS                           Contingency Operation Site
DCMA                          Defense Contract Management Agency
DRMO                          Defense Reutilization and Marketing Office
FOB                           Forward Operating Base
FWT                           Fair, Wear, and Tear
GFP                           Government Furnished Property
LOGCAP                        Logistics Civil Augmentation Program
PCP                           Property Control Procedures
QMAD                          Quantitative Methods and Analysis Division
USF-I                         United States Forces - Iraq
                                INSPECTOR GENERAL
                              DEPARTMENT OF DEFENSE
                                 400 ARMY NAVY DRIVE
                            ARLINGTON, VIRGINIA 22202·4704

                                                                      September 30, 2010

MEMORAl'lDUM FOR AUDITOR GENERAL, DEPARTMENT OF TIlE ARMY
                 DIRECTOR, DEFENSE CONTRACT MANAGEMENT
                    AGENCY

SUBJECT: Accountability and Disposition of Government Furnished Pl'OPClty in
         Conjunction with the Iraq Drawdown - Logistics Civil Augmentation
         Program (Report No. D-20IO-088)

We are providing this report fol' review arId comment. As of September 30, 2009, there
were 572,928 Government furnished property items in the Logistics Civil Augmentation
Program property book in Iraq, valued at about $2.9 bilIioIL DOD had adequate
accountability over that property; however, controls needed to be improved over items in
the contractor's Fail', Wear, arId Tear yards. Improved controls will ensure a more
effective and efficient transfer and disposal of Logistics Civil Augmentation Program
property in conjunction with the drawdown; reduce the risk of backlog; and ensure
export-controlled property is properly protected, identified for reutili711tion or
demilitarized.

DOD Directive 7650.3 requires that recomroendations be resolved promptly. We
considered connnents from the Defense Contract Management Agency when preparing
the final report. However, as a result of further discussion with Army Materiel Command
and Army Sustainment Command management, we redirected Recomroendation B.l. to
the Executive Director, Rock Island Contracting Center. Therefore, we request that the
Executive Director, Rock Island Contracting Center, comroent on Recomroendation B.l.
by October 31,2010.

Ifpossible, send a .pdffile containing your comroents to audisao((il,dodig.miL Copies of
the marIagement comments must contain the actual signature of the authorizing official.
We are unable to accept the ISignedisymbol in plaee of the actual signature. If you
arrange to send classified comroents electronically, you must send them over the
SECRET Internet Protocol Router Network (SIPAA'ET).

We appreciate the eourtesies extended to the staff. Please direct questions to Ms. Carol
Gorman at (703) 604-9179 (DSN 664-9179).




                                  Daniel R. Blair, CPA
                          Principal Assistant Inspector General
                                      for Auditing
    Report No. D-2010-088 (Project No. D2009-D000JB-0307.000)                                September 30, 2010


                     Results in Brief: Accountability and
                     Disposition of Government Furnished
                     Property in Conjunction with the Iraq
                     Drawdown – Logistics Civil Augmentation
                     Program
                                                                 that export-controlled property is properly protected,
What We Did                                                      identified for reutilization, or demilitarized.
The report addresses the accountability and
disposition of Logistics Civil Augmentation Program              What We Recommend
(LOGCAP) Government furnished property (GFP) in                  Among other recommendations, we made the
Iraq. We determined whether DOD had adequate                     following to the Commander, Defense Contract
controls over LOGCAP GFP as it draws down forces                 Management Agency - Iraq:
from Iraq. As of September 30, 2009, there were                      • resolve the outstanding requests for
572,928 GFP items in the LOGCAP property book in                        management action reissued in this report as
Iraq, valued at about $2.9 billion.                                     recommendations,
                                                                     • determine metrics for property turnover, test
What We Found                                                           compliance with those metrics, and ensure
Generally, DOD had adequate accountability over                         the LOGCAP contractor is complying with
LOGCAP GFP. We estimated that the LOGCAP                                all applicable export control regulations, and
contractor could account for 443,918 of the 458,408                  • direct the contractor to update its property
GFP items (96.8 percent) in our sample frame. 1                         control procedures to include metrics for
However, at some of the sites we visited, we                            property turnover at the Fair, Wear, and Tear
identified accountability issues that needed                            yards and to include guidance for export-
management’s attention. To address those issues, we                     controlled GFP.
issued nine memorandums during our audit
requesting management action. Unresolved requests                Management Comments and
for management action were reissued as                           Our Response
recommendations in this report.
                                                                 The Commander, Defense Contract Management
We also identified systemic issues concerning the                Agency – International, either agreed with the
management and disposition of GFP items located at               recommendations or provided comments that were
the LOGCAP contractor’s Fair, Wear, and Tear                     responsive to the recommendations. We redirected
yards. This occurred because the Defense Contract                Recommendation B.1 to the Executive Director,
Management Agency did not require the contractor to              Rock Island Contracting Center requesting the
include Fair, Wear, and Tear yard management                     modification of the LOGCAP III contract to require
processes or care and disposition instructions specific          compliance with export-controlled regulations.
to export-controlled GFP (such as ballistic plates and           Please see the Recommendations Table on the back
ballistic blankets) in its property control procedures.          of this page. Please provide comments by
Management improvements at the Fair, Wear, and                   October 31, 2010.
Tear yards will ensure a more effective and efficient
transfer and disposal of LOGCAP GFP and ensure


1
 See Appendix C for further discussion of the sample frame
and the statistical sample methodology and analysis.
                                                             i
Report No. D-2010-088 (Project No. D2009-D000JB-0307.000)         September 30, 2010


Recommendations Table

         Management                Recommendations         No Additional Comments
                                  Requiring Comment                 Required
Commander, Defense Contract                             A.1, A.2.a, A.2.b, A.3.a, A.3.b,
Management Agency - Iraq                                A.3.c, A.3.d, A.4.a, A.4.b,
                                                        B.2.a.1, B.2.a.2, B.2.a.3, B.2.a.4,
                                                        B.2.b, B.2.c, and B.2.d.
Executive Director, Rock Island   B.1
Contracting Center


Please provide comments by October 31, 2010.




                                          ii
Table of Contents

Introduction                                                                    1

      Objectives                                                                1
      Background                                                                1
      Review of Internal Controls                                               3

Finding A. Adequate Property Accountability                                     4

      Reliable Logistics Civil Augmentation Program Property Book               5
      Site-Specific Property Accountability Issues                              7
      Recommendations, Management Comments, and Our Response                   11

Finding B. Inconsistent Management of the Fair, Wear, and Tear Yards           15

      Systemic Issues Concerning Fair, Wear, and Tear Yard Management          16
      Property Control Procedures Not Comprehensive                            19
      Untimely Processes and Disclosure of Export-Controlled                   20
             Government Furnished Property Could Effect Drawdown
      Recommendations, Management Comments, and Our Response                   21
      Management Comments Required                                             23

Appendices

      A. Scope and Methodology                                                 24
             Prior Coverage                                                    26
      B. Potential Revisions to Disposition Guidance for the Logistics Civil   27
             Augmentation Program
      C. Statistical Sample Methodology and Analysis                           31
      D. Site Memorandums                                                      33
      E. Management Comments and Audit Response to the                         56
             Site Memorandums

Management Comments

      Defense Contract Management Agency - International                       75
Introduction
Objectives
This report is one in a series concerning the accountability and disposition of
Government furnished property (GFP) in Iraq. This report focuses on Logistics Civil
Augmentation Program (LOGCAP) GFP. Other reports in the series will focus on GFP
associated with contracts issued by the Joint Contracting Command - Iraq/Afghanistan.2
Our audit objective was to determine whether DOD had adequate controls over LOGCAP
GFP3 as it draws down forces from Iraq. See Appendix A for discussion of our audit
scope and methodology, and for prior coverage. See Appendix B for other matters of
interest concerning potential revisions to disposition guidance for LOGCAP GFP in
conjunction with the Iraq drawdown.

Background
We performed this audit in response to a request from the former Commander,
U.S. Central Command, to focus oversight on asset accountability to ensure U.S.-funded
assets are properly accounted for and there is a process for the proper transfer or disposal
of assets in conjunction with the responsible drawdown of U.S. Forces and equipment
from Iraq.

According to the Security Agreement between the Governments of the United States and
Iraq, all U.S. Forces will withdraw from Iraqi territory no later than December 31, 2011.
As of August 24, 2010, United States Forces - Iraq (USF-I)4 had reduced its U.S. troop
levels to 50,000. In addition to the drawdown of personnel, DOD must also determine
the disposition of its equipment.

Logistics Civil Augmentation Program
LOGCAP provides logistical support to U.S. Forces throughout Southwest Asia,
including Iraq and Afghanistan. On December 14, 2001, the U.S. Army Operations
Support Command awarded a 10-year LOGCAP contract to KBR Inc. (the LOGCAP
contractor). The U.S. Army Sustainment Command awarded task order 159 on
September 24, 2008, with an initial period of performance from September 1, 2008,
through August 31, 2009, and an option period of performance from September 1, 2009,
through August 31, 2010. Task Order 159 is a cost-plus-award-fee contract action that
provides base life support, corps logistics services support, and the theater transportation


2
  As of June 2010, the Joint Contracting Command – Iraq/Afghanistan became the CENTCOM Contracting
Command.
3
  For the purposes of this report, GFP includes property furnished to the contractor upon contract start and
any property acquired, fabricated, or otherwise provided by the contractor to which the Government has
title.
4
  As of January 1, 2010, the three Iraq major commands, Multi-National Force-Iraq, Multi-National Corps
– Iraq, and Multi-National Security Transition Command – Iraq, merged into a single command, U.S.
Forces – Iraq.

                                                     1
mission for USF-I. GFP from the previous LOGCAP III task orders 139 and 147 was
transferred to task order 159. According to the U.S. Army Sustainment Command,
LOGCAP III will continue to provide support services to U.S. Forces in Iraq until the
withdrawal is completed in December 2011.

Logistics Civil Augmentation Program Property in Iraq
As of September 30, 2009, there were 572,928 GFP items in the LOGCAP property book
in Iraq, valued at about $2.9 billion (see Figure 1 for a breakdown of those items).
According to the Defense Contract Management Agency (DCMA) Theater Property
Administrator, that number was reduced to about 497,855 LOGCAP GFP items as of
May 24, 2010.

                               Figure 1. LOGCAP GFP




Management of the Logistics Civil Augmentation Program
Contract
According to the U.S. Army Sustainment Command, which is the executive agent for
LOGCAP, they execute the LOGCAP contract through the Rock Island Contracting
Center. The U.S. Army Sustainment Command also established a logistics support
element at each approved LOGCAP site to coordinate and monitor LOGCAP
requirements. The U.S. Army Sustainment Command delegated administrative
contracting officer duties to DCMA. DCMA, as the contract administrator of task
order 159, is responsible for monitoring the contractor’s overall performance to ensure
compliance with contract requirements. Contract administrators are also responsible for
Government property administration, which includes the analysis of the contractor’s
property management policies, procedures, practices, and systems.




                                           2
Review of Internal Controls
DOD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DOD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses for DCMA. DCMA did not have the following internal controls for the
management of LOGCAP GFP: ensure that the LOGCAP contractor consistently
implemented its approved property control procedures (PCP) in managing LOGCAP
GFP; and the approved PCP did not comprehensively address Fair, Wear, and Tear
(FWT) yard management, metrics for the timely disposition of LOGCAP GFP, or the
care needed to protect and dispose of export-controlled GFP. Implementing the
recommendations in this report will improve controls over LOGCAP GFP. We will
provide a copy of the report to the senior official responsible for internal controls in the
DCMA and the Department of the Army.




                                              3
Finding A. Adequate Property Accountability
Generally, DOD had adequate accountability over LOGCAP GFP. Based on existence
testing,5 we estimated that the LOGCAP contractor could account for 443,918 of the
458,408 GFP items (96.8 percent) in our sample frame.6 In addition, based on
completeness testing,7 we determined that 390 of 404 GFP items judgmentally selected to
trace back to the LOGCAP property book were correctly accounted for in the property
book. See Appendix C for the statistical sample methodology and analysis.

Although accountability of LOGCAP GFP was generally adequate, we identified site-
specific property accountability issues that needed management’s attention. To ensure
the LOGCAP contractor and DCMA could effectively and timely allocate their resources
to improve property accountability where needed, we issued nine memorandums that
reported on the results of our site visits (see Appendix D for copies of the site
memorandums). The 9 memorandums contained 17 requests for management action.
The requests not resolved as of August 19, 2010, are reissued as recommendations in this
report (see Appendix E for the management comments and our audit response to the
memorandums).

Property Accountability Requirements
Property accountability requirements for the LOGCAP contractor are contained in DOD
regulations, the LOGCAP III task order 159 statement of work, and the contractor’s PCP.
DOD Instruction 5000.64, “Accountability and Management of DOD-Owned Equipment
and Other Accountable Property,” November 2006, states that property records must
reflect the status and location of Government property until its disposition, return to the
DOD, or until the Component is relieved of accountability. Third parties (to include
contractors) have responsibility, consistent with the terms and conditions of the contract
or third-party agreement, for the Government property in their care.

The statement of work for the LOGCAP III task order 159 requires the contractor to
assume the life cycle process8 for all GFP in accordance with the Federal Acquisition
Regulation part 45, applicable supplements, and the contract clauses relating to property.
Part 45 states that the agency responsible for contract administration is required to
conduct an analysis of the contractor’s property management policies, procedures,
practices, and systems.



5
  Existence testing is conducted by tracing an item from the property book records to its physical location
to confirm the item exists.
6
  See Appendix C for further discussion of the sample frame and the statistical sample methodology and
analysis.
7
  Completeness testing is conducted by selecting an item from its physical location and tracing it to the
property book to verify the property records are complete and include the selected item.
8
  An asset’s life cycle is from the initial acquisition and receipt, through accountability and custody, until
formal release of accountability by authorized means, which includes final disposition, or a completed
evaluation and investigation for lost, damaged, destroyed, or stolen property.

                                                       4
As the agency responsible for the LOGCAP contract administration, DCMA approved
the contractor’s PCP on July 15, 2008. The PCP contains procedures detailing the
receipt, identification, storage, physical inventory, property records, and disposition of
property. The PCP requires that all LOGCAP GFP be properly documented and
controlled, “from requisition through receipt at destination and from issue until
consumption, disposal, or return to the Government.”

Reliable Logistics Civil Augmentation Program Property
Book
Overall, the LOGCAP property book met accountability expectations and proved to be
reliable. We tested the accuracy and reliability of the LOGCAP property book by
                                          verifying the existence of GFP and the
     Overall, the LOGCAP property         completeness of the LOGCAP property book at
        book met accountability           32 sites throughout Iraq. The results of our site
     expectations and proved to be        visits were reported in nine memorandums that
                 reliable.                we issued by site (or groups of sites) so that
resources could be effectively allocated to improve accountability over LOGCAP GFP.
See Appendix D for copies of the site memorandums.

Logistics Civil Augmentation Program Property Existence
Verified
We verified the existence of 365 of the 376 GFP items included in our statistical sample,
which was selected from the LOGCAP property book as of September 30, 2009. To
determine existence, we used the identification attributes9 listed in the LOGCAP property
book to locate and verify the GFP items. We requested and reviewed documentation to
support accountability of GFP items that were not physically located at the time of the
site visit. We were unable to verify the existence of 11 of the 376 GFP items in our
sample because the LOGCAP property book was not updated to reflect that the items had
been moved to another site (6 of 11 items); the items were not properly marked as
Government property (4 of 11 items); or the item had been sold by the Department of
State to the United Nations without notifying DOD or the contractor (1 of 11 items). See
Appendix D for details of these 11 instances. Table 1 illustrates the number of the GFP
items that we sampled by site and the number of items verified or not verified for
existence.




9
 Identification attributes consisted of make, model, asset number, serial number and Government property
number.

                                                   5
                              Table 1. Existence Testing Results
                                                                               Existence
                                                  Total Items      Existence
                      Sites                                                       not
                                                    Tested         Verified
                                                                               Verified
 COS-Diamondback, Endurance, and                      34              34           0
 Marez, and COL Sykes
 COB Adder, FOB Bucca, and COS Cedar                  42              42          0
 Joint Base Balad                                     48              47          1
 COB Al Asad and COS Al Taqaddum                      46              43          3
 COS-Prosperity, Loyalty, and Radwaniyah              40              39          1
 Palace, FOB Hammer and Shield, and
 COB West BIAP
 COB Speicher and COS-Taji, Warrior, and              81              80          1
 Warhorse
 COL Echo                                             20              20          0
 COL Delta                                            20              20          0
 BIAP Area: Alpha West, Wayne’s World,                45              40          5
 East Life Support Area, Camp Parker,
 Liberty, Division, South Victory,
 Warehouse, Baghdad Transfer Center, and
 the Industrial Zone
    Total                                             376            365          11
 BIAP   Baghdad International Airport
 COB    Contingency Operation Base
 COL    Contingency Operation Location
 COS    Contingency Operation Site
 FOB    Forward Operating Base

Based on the existence testing results, we estimated that DOD could account for
approximately 443,918 of the 458,408 GFP items, or 96.8 percent, of the sample frame.

Logistics Civil Augmentation Program Property Book
Completeness Verified
We verified that the LOGCAP property book contained accurate information for
390 of the 404 GFP items that we judgmentally selected to trace back to the property
book (completeness testing). To determine the completeness of the LOGCAP property
book, we selected similar GFP items located near the items selected for existence testing
and traced those items back to the property book. Specifically, we annotated the
identification attributes found on the GFP items and compared those attributes to the
information listed in the LOGCAP property book. The LOGCAP property book was not
accurate for 14 of the 404 GFP items because the items were not accurately recorded
(1 of 14 items); were not marked with identifiable information (2 of 14 items); had
incorrect descriptions (2 of 14 items); or were erroneously removed from the property


                                              6
book (9 of 14 items). See Appendix D for details of these 14 instances. Table 2
illustrates the number of the GFP items that we sampled by site and the number of items
verified or not verified for completeness.

                         Table 2. Completeness Testing Results
                                          Total
                                                     Completeness                 Completeness
                  Sites                   Items
                                                        Verified                   not Verified
                                          Tested
COS-Diamondback, Endurance, and             40             40                             0
Marez, and COL Sykes
COB Adder, FOB Bucca, and COS              4410            44                             0
Cedar
Joint Base Balad                            48             48                             0
COB Al Asad and COS Al Taqaddum             46             46                             0
COS-Prosperity, Loyalty, and                38             38                             0
Radwaniyah Palace, FOB Hammer and
Shield, and COB West BIAP
COB Speicher and COS-Taji, Warrior,         86             85                             1
and Warhorse
COL Echo                                    24             17                             7
COL Delta                                   25             21                             4
BIAP Area: Alpha West, Wayne’s              53             51                             2
World, East Life Support Area, Camp
Parker, Liberty, Division, South
Victory, Warehouse, Baghdad Transfer
Center, and the Industrial Zone
  Total                                    404            390                            14

We cannot calculate a projection for our judgmental sample of 404 GFP. Results of a
judgmental sample cannot be used to draw inferences concerning the rest of the
population.

Site-Specific Property Accountability Issues
Although accountability of LOGCAP GFP was generally adequate, we identified site-
specific property accountability issues that needed management’s attention. To ensure
that the LOGCAP contractor and DCMA could effectively and timely allocate their
resources to improve property accountability where needed, we issued nine
memorandums that reported on the specific results of our site visits (see Appendix D).


10
  This report corrects a minor misstatement in the memorandum issued for COB Adder, FOB Bucca and
COS Cedar issued to DCMA (see Appendix D). We sampled a total of 44 items at those locations not
45 as mentioned in the memorandum. The correction does not change the conclusions of the memorandum
or this report.

                                                 7
We visited 32 sites, which we grouped into 9 geographic locations to issue the site
memorandums. The 9 site memorandums contained 17 requests for management action.

We received management comments from DCMA-Iraq in response to eight of the nine
site memorandums. After analyzing the management comments, we determined that
11 of 17 requests for management action remained unresolved, primarily because
DCMA-Iraq did not provide a response specific to our request or provide alternative
action to correct the identified problem. Of the 11 unresolved requests, 9 are reissued as
recommendations in this finding and 2 are addressed in Finding B. Table 3 lists the total
number of management requests issued per memorandum and their status. See
Appendix E for comments from DCMA-Iraq and our response to those comments.

            Table 3. Resolved/Unresolved Requests for Management Action
                                                                             Finding that
                              Total Requests
                                                                              Request is
    Site Memorandum                 for            Resolved   Unresolved
                                                                             Reissued as
         Locations             Management          Requests    Requests
                                                                           Recommendation
                                  Action
                                                                            or Addressed
 COS-Diamondback,                   0                N/A         N/A             N/A
 Endurance, and Marez, and
 COL Sykes
 COB Adder, FOB Bucca,              1                 1           0             N/A
 and COS Cedar
 Joint Base Balad                   1                 0           1           Finding A
 COB Al Asad and COS Al             1                 1           0             N/A
 Taqaddum
 COS-Prosperity, Loyalty,           0                N/A         N/A            N/A
 and Radwaniyah Palace,
 FOB Hammer and Shield,
 and COB West BIAP
 COB Speicher and                   2                 2           0             N/A
 COS-Taji, Warrior, and
 Warhorse
                                    5                 2           3         Finding A and
 COL Echo
                                                                              Finding B
                                    5                 0           5         Finding A and
 COL Delta
                                                                              Finding B
 BIAP Area: Alpha West,             2                 0           2           Finding A
 Wayne’s World, East Life
 Support Area, Camp
 Parker, Liberty, Division,
 South Victory, Warehouse,
 Baghdad Transfer Center,
 and the Industrial Zone
   Total                           17                 6          11




                                               8
Joint Base Balad-Existence of Ballistic Blanket Not Verified
During our November 28-30, 2009, site visit to Joint Base Balad, we were unable to
verify the existence of 1 of the 48 GFP items in our statistical sample. According to the
LOGCAP property book, that item (a ballistic blanket) was located on a vehicle. The
contractor subsequently stated that the vehicle was decommissioned on
November 20, 2009, and the item was moved to another site. Because the LOGCAP
contractor had not received timely notification that the vehicle had been decommissioned
and the GFP item moved, we requested that the Commander, DCMA-Iraq, statistically
sample the GFP items located on vehicles and, based on the results, determine whether
further action was warranted. Our primary concern was that ballistic blankets are
considered sensitive items and are, according to the contractor’s PCP, subject to special
controls including additional protection and physical security.

In her written comments to our memorandum, the DCMA Theater Property
Administrator did not address our request to statistically sample the GFP items on
vehicles but only addressed the accountability of the one ballistic blanket. She stated that
the contractor’s property book for Joint Base Balad was updated on November 28, 2009,
to show the ballistic blanket’s new location at Tallil Air Base.

We considered the Theater Property Administrator’s comments nonresponsive. We
reviewed the LOGCAP property book as of November 29, 2009, and it still indicated that
the ballistic blanket was located at Joint Base Balad and not the new location, Tallil Air
Base. In addition, the Theater Property Administrator did not address our specific
request to statistically sample the GFP items located on vehicles and, based on the results,
determine whether further action was warranted. Therefore, we reissued this
management request as a recommendation in this Finding.

Contingency Operation Location Echo-Completeness Not
Verified for Seven Items
During our November 26-28, 2009, site visit to COL Echo, we were unable to trace
7 of the 24 GFP items that we judgmentally selected back to the LOGCAP property book
(completeness testing). Specifically, two of the items did not have Government property
numbers,11 and five items had been erroneously removed from the LOGCAP property
book. We requested that the Commander, DCMA-Iraq, ensure that Government property
numbers were properly affixed to GFP items and that a 100-percent inventory be taken at
the materials department, where all five of the items erroneously removed from the
LOGCAP property book were located.

In her written comments to our memorandum, the DCMA Theater Property
Administrator stated corrective action had been taken to determine the Government
property number for the items that did not have a number, obtain new disposition



11
     The Government property number is the primary identifier for tracking LOGCAP GFP.


                                                    9
instructions for items that should already have been disposed of, and correct the sensitive
item that was not on the property book because of an error.

We considered the Theater Property Administrator’s comments to be partially responsive
because she did not address our request for a 100-percent inventory at the COL Echo
Materials Department. Based on the number of discrepancies, a 100-percent inventory is
warranted to ensure the accountability of LOGCAP GFP at the Materials Department.
Also, once the 100-percent inventory is complete, the contractor should be directed to
dispose of all GFP approved for disposition and request disposition instructions for the
remaining excess GFP items to allow for better accountability of GFP items at
COL Echo. Therefore, we reissued two of the management requests as recommendations
in this Finding. The third management request concerns the FWT yards and is addressed
in Finding B.

Contingency Operation Location Delta-Overflow and Fair, Wear,
and Tear Yard Issues
During our November 28-29, 2009, site visit to COL Delta, we were able to verify the
existence of the 20 items tested for existence, and the completeness of the 25 items tested
for completeness. However, we identified issues at the overflow yard and FWT yard.
The COL Delta overflow yard contained five trash trucks (worth about $700,000) that
had been parked, unused, in the yard since at least December 2008. The contractor could
not provide a sufficient explanation as to why the trucks had been parked in the yard for
such an extended period. Therefore, we requested that the Commander, DCMA-Iraq
provide a sufficiently supported account of all management decisions and actions taken
concerning the acceptance, use, and disposition of the five trash trucks; determine
whether personnel or cost recovery actions were warranted; and determine proper
disposition of the trucks.

In addition, the FWT yard at COL Delta contained 87 boxes of unused wall lockers that
had been received, opened, and tagged with government property numbers in December
2007. The wall lockers were stored in a warehouse for almost two years before being
declared unserviceable in June 2009. The contractor should have identified the wall
lockers as excess and determined whether the items could have been used elsewhere in
Iraq. Therefore, we requested that DCMA-Iraq, as part of their periodic inventory
process, identify property that is excess to the contract and ensure its proper disposition.

We did not receive comments from DCMA-Iraq concerning the COL Delta
memorandum. Therefore, four of the management requests are reissued as
recommendations in this Finding. The fifth request concerns the FWT yards and is
addressed in Finding B.

Baghdad International Airport Area-Existence or Completeness
Not Verified for Seven items
During our December 11-14, 2009, site visits to the BIAP Area, we were unable to verify
the existence of 5 of the 45 GFP items in our statistical sample, and we were unable to
trace 2 of the 53 GFP items that we judgmentally selected back to the LOGCAP property
                                             10
book (completeness testing). Because the five items from our statistical sample should
have been identified as discrepancies during the contractor’s annual 100-percent physical
inventory, we requested that the Commander, DCMA-Iraq require the contractor to
conduct another 100-percent inventory at four sites in the BIAP Area. We also requested
that the Commander, DCMA-Iraq direct the contractor to establish and implement
effective procedures for accounting for window air conditioner units because the
contractor is accounting only for the air conditioner frames and not the primary part of
the unit that is scrapped or otherwise dispositioned.

In her written comments to our memorandum, the DCMA Theater Property
Administrator did not address our request to conduct a 100-percent inventory at four sites
in the BIAP Area (South Victory, Warehouse, Liberty, and Alpha West). The Theater
Property Administrator disagreed with our request to establish and implement effective
procedures for accounting for window air conditioner units, stating that the contractor
was granted the authority to remove the mechanical part of the air conditioner units from
the frame to minimize unit down time.

We considered the Theater Property Administrator’s comments nonresponsive because
the comments did not address our inventory request and because we disagree with her
position concerning the accountability of the window air conditioner units. Therefore, we
reissued the two management requests as recommendations in this Finding.


Recommendations, Management Comments, and Our
Response
The Commander, Defense Contract Management Agency - International, responded for
the Defense Contract Management Agency - Iraq.

A. We recommend the Commander, Defense Contract Management Agency -
Iraq:

        1. Statistically sample the Logistics Civil Augmentation Program
Government furnished property items that are located on vehicles at Joint Base
Balad, inventory those items, and, based on the results of the inventory, determine
whether further action is warranted to ensure accountability of those items.

Management Comments
The Commander, Defense Contract Management Agency - International, agreed. The
Commander stated that the Logistics Civil Augmentation Program III contract at Joint
Base Balad was replaced by the Air Force Contract Augmentation Program, and all
property was transferred. However, during the implementation of the Logistics Civil
Augmentation Program IV, the Defense Contract Management Agency - Northern Iraq
conducted a verification audit of the contractor’s 100 percent annual inventory for FY 10
at five different sites, and concluded that managerial controls were satisfactory for
ensuring compliance with property requirements.


                                            11
Our Response
The Commander, Defense Contract Management Agency - International comments are
responsive, and no further comments are required.

       2. Require the Logistics Civil Augmentation Program contractor at
Contingency Operation Location Echo to:

             a. Conduct a 100-percent inventory of the Materials Department and
        adjust the Logistics Civil Augmentation Program property book in
        accordance with the inventory results.

Management Comments
The Commander, Defense Contract Management Agency - International, agreed. The
Commander stated that a 100 percent inventory is scheduled to be completed by
September 30, 2010, and that records will be adjusted for any discrepancies noted.

Our Response
The Commander, Defense Contract Management Agency - International comments are
responsive, and no further comments are required.

             b. Disposition the items that have been approved for disposition and
        request disposition instructions for any remaining excess Government
        furnished property items.

Management Comments
The Commander, Defense Contract Management Agency - International, agreed. The
Commander stated that the Defense Contract Management Agency - Iraq conducted a
Property Management System Analysis at COL Echo on March 16, 2010, and found the
contractor’s control of Government property to be adequate. Specifically, they sampled
the disposition schedule, determined that disposition instructions were received, and that
property for disposition was identified and segregated. The contractor identified and
segregated property scheduled for disposition. In addition, when the property was picked
up, they ensured it was de-tagged and reviewed documentation to ensure compliance with
the contractor’s property control procedures.

Our Response
The Commander, Defense Contract Management Agency - International comments are
responsive, and no further comments are required.

        3. Take action at Contingency Operation Location Delta to:

              a. Provide a sufficiently supported account of all management
        decisions and actions taken concerning the acceptance, use, and disposition
        of the five trash trucks located at the overflow yard.


                                           12
Management Comments
The Commander, Defense Contract Management Agency - International, agreed. The
Commander stated that they issued a Letter of Technical Direction to the contractor
requesting a detailed history of the five trash trucks. The contractor responded with a
detailed documented history of the requirement, purchase, receipt, movement, and
subsequent legal dispute between the contractor and the vendor.

Our Response
The Commander, Defense Contract Management Agency - International comments are
responsive, and no further comments are required.

            b. Determine whether personnel or cost recovery actions are
        warranted for the five trash trucks located at the overflow yard.

Management Comments
The Commander, Defense Contract Management Agency - International, agreed. The
Commander stated that they requested the Defense Contract Audit Agency to perform an
audit to determine whether personnel or cost recovery actions were warranted. However,
due to resource constraints and additional priorities, the audit has not been completed.
The Defense Contract Management Agency - Iraq will follow up on the audit request by
September 30, 2010.

Our Response
The Commander, Defense Contract Management Agency - International comments are
responsive, and no further comments are required.

             c. Determine the proper disposition of the five trash trucks located at
        the overflow yard.

Management Comments
The Commander, Defense Contract Management Agency - International, agreed. The
Commander stated that two of the five trash trucks were determined to be unserviceable
and not economically repairable. The two trucks were scheduled for demilitarization and
scrap through the Plant Clearance Process. The remaining three trucks were determined
to be serviceable and transferred to operations at Tallil on June 22, 2010.

Our Response
The Commander, Defense Contract Management Agency - International comments are
responsive, and no further comments are required.

             d. Identify, during the periodic inventory process, property that is
        excess to the contract and ensure its proper disposition.




                                            13
Management Comments
The Commander, Defense Contract Management Agency - International, agreed. The
Commander stated they completed a Property Management System Analysis at Delta on
March 16, 2010 and did not identify any excess property.

Our Response
      The Commander, Defense Contract Management Agency - International comments
are responsive, and no further comments are required.

      4. Direct the Logistics Civil Augmentation Program contractor at the
Baghdad International Airport Area to:

             a. Establish and implement effective procedures to account for the air
        conditioner units and ensure those procedures are included in the
        contractor’s property control procedures.

Management Comments
The Commander, Defense Contract Management Agency - International, agreed. The
Commander stated all current air conditioner units assigned under the Logistics Civil
Augmentation Program III in Iraq will be removed from the active records to inactive
status in the contractor’s property accountability system. The air conditioner units will be
maintained and tracked by the Directorate of Engineering, and as units are issued, they
will be considered consumed upon installation.

Our Response
The Commander, Defense Contract Management Agency - International comments are
responsive, and no further comments are required.

             b. Conduct a 100-percent inventory of Logistics Civil Augmentation
        Program property at South Victory, Warehouse, Liberty, and Alpha West.

Management Comments
The Commander, Defense Contract Management Agency - International, agreed. The
Commander stated that a 100-percent inventory will be conducted by
September 30, 2010, and that the contractor’s records will be adjusted for any
discrepancies noted.

Our Response
The Commander, Defense Contract Management Agency - International comments are
responsive, and no further comments are required.




                                            14
Finding B. Inconsistent Management of the
Fair, Wear, and Tear Yards
Although we determined that in general, DOD had adequate accountability over
LOGCAP GFP (Finding A), we identified a systemic issue concerning the management
of the FWT yards. Specifically, the LOGCAP contractor was not consistently managing
and disposing of GFP located in the FWT yards. In addition, at the FOB Liberty FWT
yard, export-controlled GFP, such as ballistic plates and ballistic blankets, were not being
processed for disposal and were not secured from access by unauthorized personnel. This
occurred because DCMA did not require the contractor to comprehensively address
FWT yard management, disposition metrics, or protection and disposal of export-
controlled GFP in its PCP. In addition, the LOGCAP III contract did not require the
LOGCAP contractor to follow export-control regulations. As the pace of the Iraq
drawdown increases, the amount of GFP processing through the FWT yards will increase.
Therefore, management improvements are needed now to ensure a more effective and
efficient transfer and disposal of LOGCAP GFP property in conjunction with the
drawdown; reduce the risk of backlog; and ensure export-controlled GFP is properly
protected, identified for reutilization, or demilitarized.

Fair, Wear, and Tear Yards
According to the LOGCAP contractor, there are 11 regional FWT yards in Iraq in which
excess and unserviceable GFP items are stored while the contractor awaits disposition
instructions from DCMA. The FWT yards are managed by the contractor’s Materials
Department. According to the contractor’s PCP, the Materials Department is responsible
for receiving excess, unserviceable, or obsolete GFP, and requesting a technical
inspection to determine serviceability. If a GFP item is declared serviceable, Materials
Department personnel will determine if a local need exists for the item and, if so, will
reissue the item. If the item is not needed locally, Materials Department personnel tag
the item as excess and request disposition instructions. If the item is declared
unserviceable, disposition instructions are also requested; generally, those instructions
direct the contractor to dispose of the item by scrap vendor or the Defense Reutilization
and Marketing Office (DRMO).

Export-Control Regulations
Federal, DOD, and Army regulations provide policy and procedures for safeguarding
controlled materiel, to include classified, export controlled, and sensitive materiel. At the
Federal level, the International Traffic in Arms Regulations 2009 designate defense
articles and defense services that are subject to export controls. The International Traffic
in Arms Regulations state that protective personnel equipment specifically designed,
developed, modified, or equipped for military application is designated as defense articles
and export controlled. By definition, protective personnel equipment includes body
armor and ballistic blankets.



                                             15
At the DOD level, DOD Instruction 2040.02, “International Transfers of Technology,
Articles, and Services,” July 10, 2008, and the “National Industrial Security Program
Operating Manual,” February 28, 2006, contain guidance specific to export-controlled
materiel. DOD Instruction 2040.02 states that contractors are not to disclose export-
controlled information and technology (classified or unclassified) to a foreign person
unless such disclosure is authorized by an export license, other authorization from a
U.S. Government authority, or an exemption to export licensing requirements. The
DOD Instruction further states that controlled technology is considered to be disclosed
when information is transferred to foreign persons by means of a visual inspection, oral
exchange, application of the technology or data, or the use of any other medium of
communication. Any disclosure of controlled technology or technical data to any foreign
person, whether it occurs in the United States or abroad, is deemed an export.
Contractors are required to implement safeguards to prevent unauthorized disclosure of
export-controlled technology to foreign nationals assigned to or employed by the
contractor.

The “National Industrial Security Program Operating Manual,” February 28, 2006, states
that contractors cleared to access export-controlled data are required to implement
safeguards to prevent unauthorized disclosure. When foreign nationals are assigned to or
employed by a contractor, a technology control plan may also be required, which
includes safeguards such as unique badging, escorts, and segregated work areas necessary
to prevent unauthorized access.

At the Army level, Army Regulation 735-5, “Policies and Procedures for Property
Accountability,” June 10, 2002, defines controlled materiel as materiel designated to have
characteristics requiring that they be identified, accounted for, secured, segregated, or
handled in a special manner to ensure their safekeeping and integrity. Sensitive materiel
is defined as materiel requiring a high degree of protection and control because of
statutory requirements or regulations and is high-value, highly technical, or hazardous.

Systemic Issues Concerning Fair, Wear, and Tear Yard
Management
The LOGCAP contractor was not consistently managing and disposing of GFP located in
its FWT yards. We identified FWT yard management issues in four of the nine
memorandums that we issued in conjunction with our site visits. Specifically, contractor
personnel were not monitoring GFP disposal (2 memorandums), ensuring the LOGCAP
property book was updated to reflect disposition (3 memorandums), and not timely
processing unserviceable GFP for disposition (2 memorandums). In addition, according
to the contractor, contractor personnel at FOB Liberty were storing 8,182 ballistic plates
and 168 ballistic blankets in the FWT yard and warehouse but had not requested
disposition instructions for the items and had not implemented controls to prevent
unauthorized access to those items by foreign national employees.




                                            16
Erroneous Reporting of Property Disposal
In the COL Echo; BIAP Area; COB Speicher; and COS Taji, Warrior, and Warhorse
memorandums, we identified that the contractor had erroneously updated the LOGCAP
property book to reflect disposal of GFP that was actually still located in the FWT yard.
We also identified that the contractor did not always update the LOGCAP property book
when items were actually disposed of. For example, at COL Echo and COS Taji we
identified nine GFP items that were still located in the FWT yard or in the Material
Department that the LOGCAP property book showed as disposed. For eight of those
GFP items, contractor documentation indicated that a scrap vendor had picked up the
items. According to the contractor, the scrap vendor had not taken all of the items that he
was scheduled to remove but the disposal documentation had still been processed. At the
BIAP Area, we were unable to find an item that was listed on the LOGCAP property
book as being located at the FWT yard. Although the contractor subsequently provided
documentation showing that the item had been transferred to the DRMO for disposal in
April 2009, the LOGCAP property book had not been updated to reflect that disposal.

Disposition Not Timely
In the COLs Delta and Echo memorandums, we identified that unserviceable GFP was
not disposed of timely from the FWT yards. At COL Delta, we identified GFP items that
had been in the FWT yard since 2005. At                At COL Delta, we identified
COL Echo, we identified GFP items that had            GFP items that had been in the
been in the FWT yard for a period of 6 months to          FWT yard since 2005.
a year. Although the LOGCAP contract does not
contain metrics for the maximum number of days GFP items should be stored in the FWT
yards awaiting disposal, we believe that 6 months and beyond is excessive.

We also identified that the COLs Delta and Echo FWT yards contained a
disproportionate number of GFP items when compared to other installations
(10.09 percent and 11.24 percent, respectively). In addition, subsequent to the issuance
of our memorandums, we noted that the FOB Liberty FWT yard also was in that category
(8.45 percent). Table 4 lists the sites we visited, the number of GFP items in the
respective FWT yards, the total GFP items located at those sites, and the percentage of
LOGCAP GFP items in the FWT yard.12




12
  Although we issued nine memorandums, there are only eight data sets shown in Table 4. This is because
the installations from two of the site memorandums use the same FWT yard.

                                                  17
     Table 4. Percentage of LOGCAP GFP Items in FWT Yards at Sites Visited
                                                              Percentage of
                             LOGCAP GFP     Total LOCAP
                                                             LOGCAP GFP
         FWT Yard            Items in FWT   GFP Items at
                                                              Items in FWT
                                 Yards         the Sites
                                                                  Yards
COS-Diamondback,                  1,050          59,070            1.78%
Endurance, and Marez, and
COL Sykes
COB Adder, FOB Bucca,             1,653          59,341            2.79%
and COS Cedar
Joint Base Balad                    1            81,155            0.00%
COB Al Asad and COS Al             722           62,022            1.16%
Taqaddum
COS-Prosperity, Loyalty,         12,232         144,675            8.45%
and Radwaniyah Palace,
FOB Hammer and Shield,
COB West BIAP, and BIAP
Area: Alpha West, Wayne’s
World, East Life Support
Area, Camp Parker, Liberty,
Division, South Victory,
Warehouse, Baghdad
Transfer Center, and the
Industrial Zone13
COB Speicher and                  1,356          92,168            1.47%
COS-Taji, Warrior, and
Warhorse
COL Echo                          1,537          13,676           11.24%
COL Delta                         1,573          15,583           10.09%

Export-Controlled Government Furnished Property Not
Processed for Disposal or Properly Secured
During a site visit to the FOB Liberty FWT yard, we identified export-controlled ballistic
plates and ballistic blankets stored in the yard. According to the contractor, there were
8,182 ballistic plates and 168 ballistic blankets stored in the FWT yard and warehouse as
of April 2010. The contractor stated that disposition instructions for the items had not
been requested because the contractor did not have personnel qualified to conduct



13
  COS-Prosperity, Loyalty, and Radwaniyah Palace; FOB Hammer and Shield; COB West BIAP and
BIAP Area (Alpha West, Wayne’s World, East Life Support Area, Camp Parker, Liberty, Division, South
Victory, Warehouse, Baghdad Transfer Center, and the Industrial Zone) are all supported by the same FWT
yard, even though the results of those sites were issued in separate memorandums.

                                                  18
technical inspections of ballistic items. Therefore, the contractor could not determine
whether the items were serviceable or unserviceable and whether the items could be
reused or should be destroyed.

We observed during the site visit that foreign national contractor employees had access to
the keys for the containers in which the ballistic plates and ballistic blankets were stored.
Further, when we asked to look inside the container that held the ballistic blankets, the
only employee with keys to that container was a foreign national employee. According
                                          to Federal, DOD, and Army regulations,
   …the only employee with keys to        contractors are required to implement safeguards
   that container [that held export-      to prevent unauthorized disclosure of export-
    controlled GFP] was a foreign         controlled technology to foreign nationals
           national employee.             assigned to or employed by the contractor. The
                                          regulations also state that controlled technology is
considered to be disclosed when information is transferred to foreign persons by means
of a visual inspection, oral exchange, application of the technology or data, or the use of
any other medium of communication. Having access to the containers and access to the
keys to the container allows the foreign national employees to “visually inspect” the
ballistic plates and ballistic blankets, which could result in unauthorized disclosure or
theft of export-controlled technology.

Property Control Procedures Not Comprehensive
On July 15, 2008, DCMA approved the LOGCAP contractor’s PCP. However, DCMA
did not require the contractor to comprehensively address FWT yard management,
disposition metrics, or protection and disposal of export-controlled GFP in its PCP.

The PCP states that the Materials Department is responsible for receiving, labeling,
storing, and moving excess LOGCAP GFP, arranging for technical inspections for
serviceability, requesting disposition instructions, and facilitating disposition. However,
the PCP does not address how the contractor should manage the property located in the
FWT yards or the Materials Department warehouse while awaiting disposition
instructions or when disposing of that property. Also, the PCP provides metrics for
actions such as processing material requisitions and completing damage reports, but it
does not provide metrics for the maximum number of days GFP items should be at the
FWT yard awaiting disposal.

The contractor’s PCP, while addressing some aspects of export controls, does not address
the procedures needed to protect and dispose of export-controlled items or provide
guidance on what constitutes an export of controlled technology. The PCP contains a
section that discusses export controls, but only within the context of requisitioning,
purchasing, and transporting export-controlled GFP; it does not address disposition. The
section also contains information that could be misleading to readers as it states in a
section titled, “Export Controls/Licensing Materials,” that, “Export (or re-export) occurs
whenever an item crosses a border between two countries.” This explanation is not
complete because the definition of an export is not limited to the physical transfer of an

                                             19
item across a border. As defined in Federal, DOD, and Army regulations, controlled
technology is considered to be disclosed when information is transferred to foreign
persons by means of a visual inspection, oral exchange, application of the technology or
data, or the use of any other medium of communication. Any disclosure of controlled
technology or technical data to any foreign person, whether it occurs in the United States
or abroad, is deemed an export.

To ensure more consistent management practices in the FWT yards, the PCP should be
revised to require that items designated for the scrap vendor be segregated from other
GFP at the FWT yard. This will not only ensure that the items can be easily identified for
LOGCAP property book update purposes, it will also help to ensure that items not
designated for the scrap vendor (such as GFP requiring demilitarization) are not removed.
The PCP should also be revised to contain reasonable metrics for property turnover at the
FWT yards, and the contractor should be held to meeting those metrics. Lastly, to ensure
that export-controlled GFP is protected and properly disposed of, the PCP should be
revised to include specific instructions on protecting and disposing of export-controlled
GFP, those instructions should comply with Federal, DOD, and Army requirements.

Export-Control Regulations Not Included in Logistics
Civil Augmentation Program Contract
The LOGCAP III contract did not require the LOGCAP contractor to follow Federal,
DOD or Army export-control regulations. Therefore, the Rock Island Contracting Center
should modify the LOGCAP III contract to require the LOGCAP contractor to follow
those regulations.

Untimely Processing and Disclosure of Export-
Controlled Government Furnished Property Could Effect
Drawdown
As the drawdown progresses, the amount of GFP processed through the LOGCAP
contractor’s FWT yards will increase. Without metrics to ensure the GFP is processed in
a timely manner, the risk increases that the property will pile up at the FWT yards and
create a backlog of property needing to be dispositioned. Likewise, if property is not
properly segregated for disposal, the risk increases that GFP could be improperly
dispositioned. With respect to export-controlled GFP, this could result in disclosure of
controlled technologies to foreign nationals, which could potentially have economic,
military, or national security ramifications. Because the Iraq drawdown has a firm end
date, management improvements are needed now to ensure a more effective and efficient
transfer and disposal of LOGCAP GFP through the FWT yards and to ensure that export-
controlled GFP is properly protected, identified for reutilization, or demilitarized.




                                            20
Recommendations, Management Comments, and Our
Response
Redirected Recommendation
As a result of further discussion with Army Materiel Command and Army Sustainment
Command management, we redirected draft report Recommendation B.1. to the
Executive Director, Rock Island Contracting Center. In addition, the Commander,
Defense Contract Management Agency - International, responded for the Defense
Contract Management Agency - Iraq.

B.1. We recommend the Executive Director, Rock Island Contracting Center modify the
Logistics Civil Augmentation Program III contract to require that the contractor follow
Federal, DOD, and Army export-control regulations.

B.2. We recommend the Commander, Defense Contract Management Agency -
Iraq:

      a. Issue a letter of technical direction requiring the Logistics Civil
Augmentation Program III contractor to update its property control procedures to:

              1. Require segregation of Government furnished property within the
        Fair, Wear, and Tear yard by disposition method.

Management Comments
The Commander, Defense Contract Management Agency - International, agreed. The
Commander stated that a Letter of Technical Direction issued on September 1, 2010,
directs the contractor to segregate Government furnished property in the Fair, Wear, and
Tear yard by disposition method.

Our Response
The Commander, Defense Contract Management Agency - International comments are
responsive, and no further comments are required.

             2. Require confirmation of removal of Government furnished
        property from the Fair, Wear, and Tear yard before the Logistics Civil
        Augmentation Program property book is updated.

Management Comments
The Commander, Defense Contract Management Agency - International, agreed. The
Commander stated that a Letter of Technical Direction issued on September 1, 2010,
directs the contractor to provide verification of removal of Government furnished
property from the Fair, Wear, and Tear yard prior to removal from the property book.



                                           21
Our Response
The Commander, Defense Contract Management Agency - International comments are
responsive, and no further comments are required.

             3. Include metrics for property turnover at the Fair, Wear, and Tear
        yards.

Management Comments
The Commander, Defense Contract Management Agency - International, agreed. The
Commander stated that a Letter of Technical Direction issued on September 1, 2010,
directs the contractor to provide weekly Fair, Wear and Tear yard metric reports.

Our Response
The Commander, Defense Contract Management Agency - International comments are
responsive, and no further comments are required.

             4. Include guidance for export-controlled Government furnished
        property, such as a listing and a definition of what constitutes export-
        controlled Government furnished property and the special handling
        required to secure and dispose of export-controlled Government furnished
        property.

Management Comments
The Commander, Defense Contract Management Agency - International, agreed. The
Commander stated that a Letter of Technical Direction issued on September 1, 2010,
directs the contractor to ensure all or part of the Defense Federal Acquisition Regulation
Supplement 252.204-7008, Requirement for Contracts Involving Export-Controlled
Items, be incorporated in the contractor’s property control procedures.

Our Response
The Commander, Defense Contract Management Agency - International comments are
responsive, and no further comments are required.

        b. Determine metrics for property turnover at Fair, Wear, and Tear yards
for inclusion in the Logistics Civil Augmentation Program contractor’s property
control procedures.

Management Comments
The Commander, Defense Contract Management Agency - International, agreed. The
Commander stated that a Letter of Technical Direction issued on September 1, 2010,
directs the contractor to provide, as part of the weekly Fair, Wear, and Tear yard metric
report, the number of days property is awaiting disposition, the time frame, the scheduled
number, the number of lines of property, and the value of the property.



                                            22
Our Response
The Commander, Defense Contract Management Agency - International comments are
responsive, and no further comments are required.

        c. Test compliance with the Fair, Wear, and Tear yard property turnover
metrics during the property inspections.

Management Comments
The Commander, Defense Contract Management Agency - International, agreed. The
Commander stated that compliance with Fair, Wear, and Tear yard metric reports will be
added to the Property Management Systems Analysis audit checklist. A copy of the
checklist will be provided no later than October 31, 2010.

Our Response
The Commander, Defense Contract Management Agency - International comments are
responsive, and no further comments are required.

       d. Ensure the Logistics Civil Augmentation Program contractor is
complying with all applicable export-control regulations.

Management Comments
The Commander, Defense Contract Management Agency - International, did not agree.
The Commander stated that it is not their responsibility as contract administrators to
ensure compliance with U.S. export-control laws. However, they will conduct
appropriate oversight of the contractor’s sensitive property and will report any instances
of law violations accordingly.

Our Response
The Commander, Defense Contract Management Agency - International comments are
responsive and no further comments are required.

Management Comments Required
We redirected Recommendation B.1 to the Executive Director, Rock Island Contracting
Center. We request that the Executive Director, Rock Island Contracting Center provide
comments on the final report.




                                            23
Appendix A. Scope and Methodology
We conducted this performance audit from October 2009 through August 2010 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We conducted visits to 32 sites throughout Iraq, from November 20, 2009 through
December 14, 2009 (see Table A for a list of the sites visited and the dates of the visits).
At those sites, we tested the existence and completeness of LOGCAP GFP. Our audit
sample consisted of 376 LOGCAP GFP items statistically sampled from the LOGCAP
property book as of September 30, 2009. We tested the existence of those items by
tracing them from the LOGCAP property book to the physical location of the item as of
September 30, 2009. We used the identification attributes listed in the LOGCAP
property book to locate and verify our sample of GFP items. We requested and reviewed
documentation to support accountability of LOGCAP GFP items that were not physically
located. We considered the LOGCAP GFP to not meet the existence criteria if we could
not physically locate the item or the contractor could not provide documentation to justify
an updated location for the item.

                        Table A. Listing of 32 Sites Visited
                     Site Names                              Site Visit Dates
 COS-Diamondback, Endurance, and Marez, and COL          November 26 - 30, 2009
 Sykes
 COB Adder, FOB Bucca, and COS Cedar                     November 20 - 25, 2009
 Joint Base Balad                                        November 28 - 30, 2009
 COB Al Asad and COS Al Taqaddum                         November 24 - 27, 2009
 COS-Prosperity, Loyalty, and Radwaniyah Palace,             November 16 -
 FOB Hammer and Shield, and COB West BIAP                   December 11, 2009
                                                           December 1 - 2, 2009
 COB Speicher and COS-Taji, Warrior, and Warhorse
                                                           December 4 - 8, 2009
 COL Echo                                                November 26 - 28, 2009
 COL Delta                                               November 28 - 29, 2009
 BIAP Area: Alpha West, Wayne’s World, East Life         December 11 - 14, 2009
 Support Area, Camp Parker, Liberty, Division, South
 Victory, Warehouse, Baghdad Transfer Center, and
 the Industrial Zone

We also judgmentally selected 404 LOGCAP GFP items to determine the completeness
of the LOGCAP property book. To conduct the completeness testing, we selected
LOGCAP GFP comparable to and near the items selected for existence testing. We

                                            24
selected additional LOGCAP GFP at the FWT yards. To determine completeness, we
annotated the identification attributes found on the GFP items and compared those
attributes to the information listed in the LOGCAP property book. If we could not trace
the item to the property book, we returned to the location of the item and selected two
additional items. We determined that the records were not complete if we could not find
the LOGCAP GFP item in the property book or if the item was erroneously removed
from the property book while physically located at the site.

We developed review checklists based on the identification attributes listed in the
LOGCAP property book. We completed the checklist for each LOGCAP GFP,
documented any discrepancies, and requested supporting documentation if applicable.

We examined LOGCAP property book records and supporting documentation, including
transfer or movement documents, warehouse requisitions, and inventory records. We
also reviewed DOD policies, LOGCAP III task order 159, and the LOGCAP contractor’s
PCP.

We coordinated with or interviewed officials from USF-I: Joint Staff Logistics
Directorate Logistics Operations Center, Joint Logistics Base Management Office, Joint
Logistics Foreign Excess Personal Property Management Office, and Joint Logistics Base
Closure Assistance Team; Army Support Element - Iraq: Non-Standard Commodity
Office, and Logistics Disposition Office; Joint Contracting Command - Iraq/Afghanistan;
LOGCAP contractor personnel; Program Manager LOGCAP III; Program Manager
LOGCAP IV; and the Defense Contract Management Agency - Iraq.

We compared results of our examination and observations to established criteria to assess
DOD’s accountability and disposition of LOGCAP GFP.

Use of Computer-Processed Data
We used the data in the format of Microsoft Access from the LOGCAP property book,
which is derived from the contractor’s property book system to test accountability of
LOGCAP GFP. We tested the accountability and reliability of the data by physically
verifying the information from Microsoft Access to the LOGCAP GFP. We tested the
completeness of the data in the LOGCAP property book by recording the government
property number and additional identification attributes on GFP items and comparing that
information to the data in the property book. We concluded that the information from
LOGCAP property book, as of September 30, 2009, was sufficiently reliable for our
purposes.

Use of Technical Assistance
We received technical assistance from the Office of the Deputy Inspector General for
Auditing, Quantitative Methods and Analysis Directorate (QMAD), throughout the
sample selection and projection process. QMAD provided a sample of LOGCAP GFP
items to test for existence. QMAD also provided a projection of the number of



                                           25
unaccounted for GFP items listed in the LOGCAP property book based on the results of
that testing. See Appendix C for a detailed description of the assistance provided by
QMAD.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), DOD IG and the
Army Audit Agency (AAA) have issued three reports discussing asset accountability in
Iraq. Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov.
DOD IG reports can be accessed at http://www.dodig.mil/audit/reports. Unrestricted
AAA reports can be accessed from .mil and .gov domains over the Internet at
https://www.aaa.army.mil.

GAO
GAO Report No. GAO-08-930, “Operation Iraqi Freedom: Actions Needed to Enhance
DOD Planning for Reposturing of U.S. Forces from Iraq,” September 2008

DOD IG
DODIG Report No. D-2009-089, “Internal Controls Over Government Property in the
Possession of Contractors at Two Army Locations,” June 18, 2009

Army
AAA Report No. A-2008-0075-ALL, “Audit of Contractor-Acquired Property, Audit of
Logistics Civil Augmentation Program Operations in Support of Operation Iraqi
Freedom,” March 12, 2008




                                          26
Appendix B. Potential Revisions to
Disposition Guidance for the Logistics Civil
Augmentation Program
DOD guidance for the transfer and disposal of GFP in conjunction with the Iraq
drawdown defines the transfer and disposal process for GFP and the roles and
responsibilities for the contractor, DCMA, the Base Commander, and USF-I Joint Staff
Logistics Directorate in that process. With respect to LOGCAP GFP, USF-I should
review the guidance and determine whether process efficiencies could be gained based on
the overall reliability of the LOGCAP property book as we reported in Finding A of this
report. For example, the guidance requires that three 100-percent inventories be
conducted of GFP during the base closure process. Those inventories are to take place
within a 4-month period. The guidance also requires that each serviceable item be
manually entered into the Army property accountability system. According to USF-I
personnel, each GFP item is also manually entered into a spreadsheet before it is
transferred to the Government of Iraq. Taking three 100-percent inventories and
manually coding each GFP item twice are manually intensive and time-consuming
activities and may not be consistent with a reliable LOGCAP property book. Although
DOD should not remove controls necessary to maintain accountability of LOGCAP GFP,
if efficiencies could be gained without jeopardizing that accountability, the efficiency of
the drawdown of property from Iraq would likely benefit.

Disposition Guidance
The LOGCAP contractor’s PCP contains standard disposition guidance for processing
excess GFP. The guidance requires that the contractor distribute excess property first to
meet other LOGCAP requirements in Iraq and second, to fulfill LOGCAP mission needs
in Afghanistan. In addition, disposition guidance specific to the Iraq drawdown has been
issued by various organizations to include the Deputy Under Secretary of Defense for
Logistics and Materiel Readiness, USF-I, Department of the Army and DCMA. Table B
contains a description of drawdown specific disposition guidance as of February 7, 2010.




                                            27
Table B. Guidance for the Transfer, Reset, and Disposal of LOGCAP GFP in Iraq
            Title                       Date                           Description
USF-I Fragmentary Order            February 7, 2010     Provides an update to the process flow for
0708 “Base Closure Logistics                               transitioning LOGCAP III property.
Policy Update for Contractor-
Managed Government-Owned
and Foreign Excess Personal
Property”
USF-I Fragmentary Order            January 26, 2010      Provides guidance to validate the standard
0411 “Property Validation and                             Army maintenance information systems
Accountability for All Classes                          accountability with on-hand quantities and
of Supply Across the Iraq Joint                       bringing to record equipment, material and real
Operations Area”                                                property not accounted for.
USF-I Operations Order 10-01      December 27, 2009                     Classified
Multi-National Forces - Iraq      November 23, 2009                     Classified
Operations Order 09-01
“Responsible Drawdown of
Forces”
DCMA Memorandum:                   August 24, 2009       Clarifies the process for transitioning
Contractor Acquired Property                           LOGCAP III property and includes a process
Transfers                                                                 flow.
DCMA Memorandum: LOTD              August 5, 2009      Requires the contractor to develop property
KBR-09-ALL-Iraq-3040,                                   disposition plans for excess property by
Property Disposition Plans                                            commodity.
Department of the Army              July 30, 2009       Defines the contractual obligation for the
Memorandum: Disposition of                              disposition of property accountable on the
LOGCAP Property                                           LOGCAP Contract(s) and task orders.
Deputy Under Secretary Of            July 7, 2009     Delegates authority to transfer U.S. property in
Defense for Logistics and                                                  Iraq.
Materiel Readiness
Memorandum: Authority to
Transfer Property in Iraq
Department of the Army              June 23, 2009       Provides guidance to assist the LOGCAP
Memorandum: Procurement                                 contractor in performing site closures and
Contracting Officers Direction                           expedites property disposition/close out.
for Disposition of Contractor
Acquired Property
Multi-National Forces - Iraq        April 20, 2009     Provides guidance governing the return of all
Memorandum: Return or                                      buildings, facilities, and areas to the
Closure of Bases and Facilities                                    Government of Iraq.


Disposition Process
The GFP disposition process, as defined by DOD guidance, defines the transfer, reset,
and disposal process, and the roles and responsibilities of the contractor, DCMA, the base
Commander, and USF-I Joint Logistics Directorate in that process. For LOGCAP GFP,
once a base closure decision is confirmed, the process is as follows:




                                                28
         The LOGCAP contractor conducts a 100-percent inventory of its GFP.
         The LOGCAP contractor submits a property reallocation plan for the serviceable
         GFP to DCMA. The property reallocation plan identifies which GFP is to be
             o retained by the contractor to meet existing LOGCAP III contract
               requirements,
             o transferred to Afghanistan to fulfill LOGCAP IV requirements,
             o transferred to the base commander, and
             o disposed through the DRMO.
         DCMA screens the GFP to validate the LOGCAP IV requirements and determine
         the cost effectiveness of shipping the GFP to the gaining activity.
         The LOGCAP contractor enters information concerning its unserviceable
         LOGCAP GFP into the Plant Clearance Automated Reutilization Screening
         System14 and dispositions by scrap vendor or through the DRMO.
         The contractor and designated base representative conduct a joint 100-percent
         inventory of serviceable LOGCAP GFP that is not needed elsewhere prior to
         transferring accountability of the property to the U.S. Government.15
         The LOGCAP GFP is transitioned to the base commander via Department of the
         Army Form 3161,16 added to the Theater Property book, and then consolidated
         with the base foreign excess personal property inventory.17
         USF-I G4 Division screens the foreign excess personal property list against
         internal requirements.
         The remaining excess property is screened by USF-I Joint Logistics/Army Central
         Support Element - Iraq to fulfill its internal requirements and other
         U.S. Government Agency requirements, and redistributes the property
         accordingly throughout Iraq.
         Remaining excess property is disposed by either DRMO, retrograded or
         transferred with the base to the Government of Iraq.
         A U.S./Iraq joint inventory is conducted before the property is transferred to
         Government of Iraq.




14
   The Plant Clearance Automated Reutilization Screening System is the system used for reporting,
screening, requisitioning, and dispositioning excess Government property located at contractor facilities.
15
   The LOGCAP contractor transfers GFP to the U.S. Government. The U.S. Government assumes
accountability and then brings the GFP to record before transferring any property to foreign governments.
16
   Department of the Army Form 3161 is a request for issue or turn in of property.
17
   The foreign excess personal property list is a consolidated list of property that is declared excess.

                                                    29
Potential Efficiencies May Exist
As we reported in Finding A, the LOGCAP property book met accountability
expectations and proved to be generally reliable. Therefore, we believe that USF-I
should review the disposition process for the LOGCAP GFP and determine whether
efficiencies exist within that process.

For example, the disposition guidance requires that three 100-percent inventories be
conducted of the LOGCAP GFP during the base closure process. Those inventories are
conducted upon receipt of the base closure notice, when transferring the LOGCAP GFP
to the base commander, and when transferring the property to the Government of Iraq.
According to the established time table, these inventories take place within a 4-month
period. Conducting three 100-percent inventories is a time consuming process and may
not be consistent with the level of risk associated with a reliable property book.

The disposition guidance also requires that each serviceable LOGCAP GFP item be
manually entered into the Army property accountability system when it is transferred to
the base commander. According to USF-I personnel, all property is also manually
entered into a foreign excess personal property spreadsheet before it is transferred to the
Government of Iraq. Manually coding data is also a time consuming process and prone
to human error.

DOD should not remove controls necessary to maintain accountability of LOGCAP GFP.
However, if efficiencies could be gained without jeopardizing that accountability, the
efficiency of the drawdown of property from Iraq would likely benefit.




                                             30
Appendix C. Statistical Sample Methodology
and Analysis
Quantitative Plan
Objective. We used statistical sampling to estimate the number of unaccountable GFP
items listed in the LOGCAP property book.

Population: The data universe was 572,928 GFP items valued at $2.9 billion listed in
the LOGCAP property book. Of those 572,928 items, 12,224 items valued at $47 million
were dropped from the universe during the importing process from Microsoft Access to
the Statistical Analysis System.18 Additionally, 50,596 GFP items valued at $200 million
were dropped from the universe due to difficulties translating the alphanumeric character
provided for the location. From the 37 physical locations listed in the LOGCAP property
book, the 15 locations with the highest number and dollar value of GFP items were
selected for the final sample frame. That final sample frame consisted of 458,408 GFP
items valued at approximately $2.5 billion, which represented 80 percent of the original
universe and 84 percent of the total original dollar value.

Measures. The measure of the sampling plan for this project was the number of
unaccounted for GFP items listed in the LOGCAP property book.

Parameters: We used a 90-percent confidence interval.

Sample Plan
We used a stratified sample design for this project. As defined in Table C-1, we stratified
the population into 15 strata and randomly selected a sample for each stratum:




18
  This occurred due to human error and was not detected until after the statistical sample universe was
determined.

                                                    31
                           Table C-1 Stratum Sample Size
Stratum Name/Physical           Stratum Population                Stratum Sample
Locations                               Size                            Size
COS – Diamondback,
Endurance, and Marez, and              56,371                            34
COL Sykes
COB Adder, FOB Bucca, and
                                       49,576                            42
COS Cedar
Joint Base Balad                       80,348                            48
COB Al Asad and COS Al
                                       59,889                            46
Taqaddum
COS – Prosperity, Loyalty,
and Radwaniyah Palace,
                                       29,996                            40
FOB Hammer and Shield,
and COB West BIAP
COB Speicher and COS-
                                       78,854                            81
Taji, Warrior, and Warhorse
COL Echo                               13,829                            20
COL Delta                              13,469                            20
BIAP Area: Alpha West,
Wayne’s World, East Life
Support Area, Camp Parker,
Liberty, Division, South               76,076                            45
Victory, Warehouse,
Baghdad Transfer Center,
and the Industrial Zone
Total                                 458,408                           376

Analysis and Interpretation
The planned analysis included making projections of the number of errors. We projected
the results of the sample using the stratified sampling design. The projection results are
calculated at the 90-percent confidence level and reported in Table C-2.

                        Table C-2 Unaccountable LOGCAP GFP
                            90-Percent Confidence Interval
     Assets not found       Lower Bound      Point Estimate          Upper Bound
     Error rate                1.0%              3.2%                   5.3%
     Errors                    4,491            14,490                 24,490

Based on the sample results, we projected at the 90-percent confidence level that the
amount of unaccountable LOGCAP GFP was between 1 percent and 5.3 percent and are
90-percent confident that the total number of unaccountable LOGCAP GFP is between
4,491 and 24, 490.



                                            32
Appendix E. Management Comments and
Audit Response to the Site Memorandums
We received management comments for eight of nine memorandums we issued in
conjunction with our audit (see pages 62-74). The 17 requests for management action,
management comments, and our response follow, by issue date of the memorandums.
The 11 unresolved requests for management action have been reissued as
recommendations in this report.

DOD IG Memorandum, “Results of Site Visits to Contingency Operation Sites-
Diamondback, Endurance, Marez, and Contingency Operation Location
Sykes . . .” December 19, 2009

       We had no requests for management action in this memorandum, and, therefore,
       no comments were required.

DOD IG Memorandum, “Results of Site Visits to Contingency Operation Base
Adder, Forward Operating Base Bucca, and Contingency Operation Site
Cedar . . .” December 19, 2009

       Request for Management Action. DCMA-Iraq should ensure, as a part of their
       periodic inventory checks, that Government property numbers are readable and in
       conspicuous locations.

       DCMA Comments. The Theater Property Administrator agreed, stating that
       DCMA Government Property Administrators are working with the contractor to
       ensure that government property numbers are clearly marked. She also stated that
       the DCMA property specialist and contractor property manager have
       implemented a plan to correct the other minor discrepancies during the cyclic
       inventory.

       Our Response. The Theater Property Administrator’s comments were fully
       responsive, and no additional comments are required.

DOD IG Memorandum, “Result of Site Visit to Joint Base Balad . . .”
December 20, 2009

       Request for Management Action. We request that DCMA-Iraq statistically
       sample the GFP items that are located on rolling stock, inventory those items, and
       based on the results of the inventory, determine whether further action is needed.

       DCMA Comments. The Theater Property Administrator neither agreed nor
       disagreed, stating that, “the contractor’s property book for A-1 (Joint Base Balad)
       was updated on November 28, 2009, showing the new location of the asset in


                                           56
      question.” The Administrator explained that the blanket was accountable to a
      specific mission and not to the vehicle itself.

      Our Response. We consider the comments of the Theater Property
      Administrator to be nonresponsive because she did not provide comments specific
      to the recommendation or provide alternative action that met the intent of the
      recommendation. Furthermore, we disagree that the contractor’s property book
      was updated on November 28, 2009, to indicate Tallil Air Base as the asset
      location. During our site visit to Joint Base Balad, we reviewed the LOGCAP
      property book as of November 29, 2009. The property book still indicated that
      the ballistic blanket was located at Joint Base Balad and not at Tallil Air Base.
      This recommendation is reissued in Finding A to this report; see
      Recommendation A.1.

DOD IG Memorandum, “Results of Site Visits to Contingency Operation Base
Al Asad and Contingency Operation Site Al Taqaddum . . .” December 21, 2009

      Request for Management Action. DCMA Government Property Administrators
      should oversee all future GFP inventories taken in conjunction with the base
      closure process.

      DCMA Comments. The Theater Property Administrator neither agreed nor
      disagreed. She stated that the discrepancies identified by the audit team were
      because the auditors were taken to the wrong building and the property book was
      not updated when items were relocated. She also added that COS Al Taqaddum
      was closed as a U.S. military site on January 10, 2010, and has been turned over
      to the Government of Iraq.

      Our Response. We consider the comments of the Theater Property
      Administrator to be nonresponsive because she did not provide comments specific
      to the recommendation or provide alternative action that met the intent of the
      recommendation. However, because COS Al Taqaddum has been turned over to
      the Government of Iraq, we are not requesting additional comments to this
      management request and for the purposes of this report consider it resolved.

DOD IG Memorandum, “Results of Site Visits to Contingency Operation Sites-
Prosperity, Loyalty, and Radwaniyah Palace, Forward Operating Bases Hammer
and Shield, and Contingency Operation Base West Baghdad International
Airport . . .” January 12, 2009

      We had no requests for management action in this memorandum, and, therefore,
      no comments were required.




                                         57
DOD IG Memorandum, “Results of Site Visits to Contingency Operation Base
Speicher and Contingency Operation Sites Taji, Warrior, and Warhorse . . .”
January 31, 2010

      Request for Management Action. DCMA-Iraq should require the contractor to
      conduct a 100-percent inventory at COS Taji.

      DCMA Comments. The Theater Property Administrator agreed. She stated that
      the contractor is implementing a control process for transient personnel to ensure
      continued accountability for sensitive and accountable property. The Theater
      Property Administrator added that the contractor created a checklist for new
      inventory to ensure all tagged inventory is added to the property book and verified
      during the property management system analysis. Finally, she stated that the
      DCMA property personnel and the site contractor property manager have
      implemented a plan to correct the other minor discrepancies during the cyclic
      inventory.

      Our Response. The Theater Property Administrator’s comments were fully
      responsive, and no additional comments are required. While she did not
      specifically address the recommendation, the changes implemented will address
      the cause of the discrepancies and, therefore, meets the intent of our
      recommendation.

      Request for Management Action. DCMA-Iraq should require the contractor to
      segregate GFP items that have been approved for disposal and ensure that
      disposition is completed in accordance with the disposition instructions.

      DCMA Comments. The Theater Property Administrator agreed, stating that the
      contractor established an area in the FWT yard with signage to segregate
      inventory waiting for disposal. She continued by saying that each piece of
      equipment or pallet is now clearly marked to identify the schedule and plant
      clearance number. The inventory is to be held in that area until the scrap vendor
      arrives to remove the items.

      Our Response. The Theater Property Administrator’s comments were fully
      responsive, and no additional comments are required.

DOD IG Memorandum, “Results of Site Visit to Contingency Operation Location
Echo . . .” February 15, 2010

      Request for Management Action. DCMA-Iraq should ensure, as part of their
      periodic inventory checks, each GFP item has a Government property number and
      that the number is legible and conspicuous.




                                          58
DCMA Comments. The Theater Property Administrator agreed, stating that the
DCMA Property personnel and the site contractor property manager have
implemented a plan to correct the minor discrepancies during the cyclic inventory.

Our Response. The Theater Property Administrator’s comments were fully
responsive, and no additional comments are required.

Request for Management Action. DCMA-Iraq should require the contractor to
conduct a 100-percent inventory of the Materials Department and adjust the
LOGCAP property book in accordance with the inventory results. The DCMA
Government Property Administrator should provide contractor oversight during
that inventory.

DCMA Comments. The Theater Property Administrator neither agreed nor
disagreed. She stated that the DCMA site property personnel researched the
property records to determine the actual government property number for the
items that were lacking a full number and the government property numbers were
corrected. The Theater Property Administrator added that on December 30, 2009,
new disposition instructions were issued for the items not on the property book
but still in the FWT yard. She also stated that the sensitive item was submitted to
plant clearance in September 2007, awaiting shipment to the DRMO. However,
instead of being shipped to the DRMO, the item was relocated to the Materials
Department. The Theater Property Administrator stated that the contractor’s
corporate headquarters erroneously inactivated the item in the property book
without signed documentation, but that the error has been corrected.

Our Response. We consider the comments of the Theater Property
Administrator to be nonresponsive. While we agree with the corrective action
taken, we requested that a 100-percent inventory of the Materials Department be
conducted. We believe that based on the discrepancies noted in the Materials
Department the inventory is still warranted. This recommendation is reissued in
Finding A to this report; see Recommendation A.2.a.

Request for Management Action. Once the Materials Department completes its
100 percent inventory, DCMA-Iraq should direct the contractor to disposition the
GFP items that have been approved for disposition and request disposition
instructions for the remaining GFP items.

DCMA Comments. The Theater Property Administrator did not provide a
response specific to this recommendation.

Our Response. We consider the comments of the Theater Property
Administrator to be nonresponsive because she did not provide comments specific
to this recommendation or provide alternative action that met the intent of the
recommendation. This recommendation is reissued in Finding A to this report;
see Recommendation A.2.b.

                                    59
      Request for Management Action. DCMA-Iraq should develop metrics for
      property turnover at the FWT yard and ensure that the LOGCAP contractor meets
      those metrics.

      DCMA Comments. The Theater Property Administrator neither agreed nor
      disagreed, stating that DCMA has no control of the scrap vendor’s schedule. She
      stated that because there is not a DRMO on site, the scrap vendor is the only
      disposal method open to the contractor at this time. The Theater Property
      Administrator added that the DRMO and the contractor have been working to
      establish an area in the FWT yards to stage inventor for acceptance by DRMO
      traveling disposal teams and pickup of the inventory by a scrap vendor.

      Our Response. We consider the comments of the Theater Property
      Administrator to be nonresponsive because she did not provide comments specific
      to this recommendation or provide alternative action that met the intent of the
      recommendation. She did not address the potential systemic issue that was the
      reason for the discrepancies. This recommendation is reissued in Finding B to
      this report; see Recommendation B.2.b.

      Request for Management Action. DCMA-Iraq should require the contractor to
      segregate GFP items that have been approved for disposal and ensure that
      disposition is completed in accordance with the disposition instructions.

      DCMA Comments. The Theater Property Administrator agreed stating that the
      contractor segregated the inventory to be released to the scrap vendor from the
      rest of the inventory in the FWT yard. She stated that there is signage clearly
      identifying the segregated areas to ensure the contractor employees know which
      items can be released to the scrap vendor.

      Our Response. The Theater Property Administrator’s comments were fully
      responsive, and no additional comments are required.

DOD IG Memorandum, “Results of Site Visits to Baghdad International Airport
Area . . .” March 4, 2010

      Request for Management Action. DCMA-Iraq should direct the contractor to
      establish and implement effective procedures for accounting for the air
      conditioner units and ensure those procedures are included in the contractor’s
      property control guidance.

      DCMA Comments. The Theater Property Administrator disagreed, stating that
      the air conditioner units were identified by the government property tag on the
      frame not by the identifiable information on the mechanical parts. She added that
      the contractor was granted the authority to remove the mechanical part of the air
      conditioner units from the frame to limit unit down time. That authority was
      granted in a modification on October 19, 2009.

                                         60
Our Response. We consider the comments of the Theater Property
Administrator to be nonresponsive because she did not provide alternative action
that met the intent of the recommendation. The intent of the recommendation was
to provide better accountability of the actual air conditioner units. This practice
does not account for the air conditioner units, only the frames. The frames are not
the operational part of the air conditioner unit and are not the primary unit that is
scrapped or otherwise dispositioned. This recommendation is reissued in
Finding A to this report; see Recommendation A.4.a.

Request for Management Action. DCMA-Iraq should require the contractor
conduct a 100-percent inventory of LOGCAP GFP at South Victory, Warehouse,
Liberty, and Alpha West.

DCMA Comments. The Theater Property Administrator neither agreed nor
disagreed. She stated that items without an identification tag were retagged, the
property book was updated for the item disposed of in April 2009, and the
property book was updated to correct the incorrect descriptions.

Our Response. We consider the comments of the Theater Property
Administrator to be nonresponsive. While we agree with the corrective action
taken to retag the items and update the property book, we believe that a
100-percent inventory of these sites is still warranted. This recommendation is
reissued in Finding A to this report; see Recommendation A.4.b.




                                     61
Defense Contract Management Agency - International
Comments

                                                       Final Report
                                                        Reference

                                                     Attachments on
                                                     Tabs 1-14 were
                                                     omitted because of
                                                     length. Copies will
                                                     be provided upon
                                                     request.




                   Click to add JPEG file




                                  75
Click to add JPEG file




               76
Click to add JPEG file




               77
Click to add JPEG file




               78
Click to add JPEG file




               79
Click to add JPEG file




               80
